APPENDIX

A
Unpublished Fifth Circuit Opinion

Case: 19-10600

Document: 00515728428

Page: 1

Date Filed: 02/01/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 1, 2021

No. 19-10600

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Marcus Darwyn Jones, also known as Dab,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CR-357
Before Owen, Chief Judge, and Dennis and Haynes, Circuit Judges.
Per Curiam:*
Marcus Jones pleaded guilty to two counts of racketeering, one of
which was predicated on child sex trafficking. On direct appeal, Jones argues
that his plea was not knowing and voluntary because he was misled about the
collateral consequence of mandatory sex offender registration under the
federal Sex Offender Registration and Notification Act (SORNA). See 34

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 19-10600

Document: 00515728428

Page: 2

Date Filed: 02/01/2021

No. 19-10600

U.S.C. § 20901 et seq. 1 The Government asserts that Jones’s plea was
knowing and voluntary, that the district court made no error, and further,
that Jones likely will not have to register as a sex offender because the district
court did not order registration as a mandatory condition of supervised
release. It is unnecessary at this stage for us to decide whether Jones or the
Government is correct as to whether Jones will have to register as a sex
offender at some point in the future. On this record, his claim that his guilty
plea was not knowing and voluntary nonetheless fails.

Therefore, we

AFFIRM his conviction.
I. Factual and Procedural Background
Jones was arrested in May 2017 and charged with two counts of sex
trafficking of children in violation of 18 U.S.C. §§ 1591(a) & (b)(2). Jones
directed and facilitated the engagement in prostitution of two minors, Jane
Doe 1 and Jane Doe 2, by posting advertisements on the internet and
purchasing hotel and motel rooms for that purpose. According to his
Presentence Report (PSR), he also had sexual intercourse with Jane Doe 1.
Jones was initially represented by appointed counsel, Paul Lund, who
engaged in plea negotiations with the Government. While negotiations were
ongoing, Lund filed a motion to withdraw, which was granted. Heath Hyde
was appointed to represent Jones. Hyde continued plea negotiations and a
deal was reached wherein the Government agreed to dismiss the sex
trafficking charges and Jones agreed to plead guilty to two counts of use of a
facility of interstate commerce in aid of a racketeering enterprise in violation
of 18 U.S.C. §§ 1952(a)(2) and (a)(3). 2 The “unlawful activity” underlying

1

While failing to comply with SORNA can result in criminal penalties, SORNA
itself is not a criminal statute, but rather a “civil regulation” that “establishes a
comprehensive national system for the registration of [sex] offenders.” United States v.
Young, 585 F.3d 199, 204 (5th Cir. 2009).
2

The two racketeering charges had a combined statutory maximum sentence of 25
years imprisonment, 20 years for Count 1 and five years for Count 2. See 18 U.S.C.

2

Case: 19-10600

Document: 00515728428

Page: 3

Date Filed: 02/01/2021

No. 19-10600

Count 1 was “promotion of prostitution” in violation of Texas Penal Code
§ 43.03, and the underlying “crime of violence” was “sex trafficking of
children” in violation of 18 U.S.C. § 1591(a).

The unlawful activity

underlying Count 2 was also “promotion of prostitution” in violation of
Texas Penal Code § 43.03.
A written plea agreement and supplemental agreement were signed by
Jones on October 26, 2018, neither of which mentioned sex offender
registration. Jones also signed a Factual Resume, which included stipulated
facts as well as a recitation of the elements of racketeering, 18 U.S.C. § 1952,
and the elements of the crime of violence underlying Count 1, sex trafficking
of children in violation of 18 U.S.C. § 1591(a). On November 27, 2018, Jones
was re-arraigned and pleaded guilty before a magistrate judge to the twocount superseding information. On December 14, the district court adopted
the magistrate judge’s recommendation to accept the guilty plea.
On January 2, 2019, Jones filed a pro se motion to replace Hyde,
claiming ineffective assistance of counsel. The motion, which was dated
December 3, 2018, faulted counsel on several grounds but nowhere
mentioned sex offender registration. 3 At a hearing before a magistrate judge
on January 17, 2019, the motion was granted, and Keith Willeford was
appointed as new counsel.
However, before the pro se motion to replace Hyde was granted, Jones
filed a second pro se motion to withdraw his guilty plea. This handwritten
motion was self-dated January 15, 2019, while Jones was still represented by
§ 1952(a). By contrast, sex trafficking of children has a statutory maximum of life
imprisonment. See 18 U.S.C. § 1591(b)(2).
3

Specifically, Jones claimed that Hyde had given him “false and misleading
information” regarding (1) access to discovery; (2) “the facts as to the charge of conduct
versus the Government’s narrative,” potentially referencing the Factual Resume
supporting his plea; and (3) the “scope of legal options available . . . related to both a trial
or a plea.” Concluding his motion, Jones again claimed “deliberate deceiving of himself
by counsel Hyde regarding his legal options and the facts.”

3

Case: 19-10600

Document: 00515728428

Page: 4

Date Filed: 02/01/2021

No. 19-10600

Hyde, but was docketed by the district court on January 25, 2019, at which
point he was represented by Willeford. In this second motion, Jones claimed
his guilty plea was not knowing and voluntary for two reasons. First, he
claimed lack of adequate knowledge of the “legal facts” at the time of his
plea. He alleged that he was “informed by counsel [Hyde] that such a
designation [i.e., sex offender designation pursuant to SORNA] would not be
issued should he plead guilty,” but said that post-plea he now believed that
his guilty plea did in fact subject him to sex offender registration. Second, he
claimed that “counsel informed [him] of a specific pre-determined
sentence” of ten years if he pleaded guilty, whereas he now understood that
the court had discretion to sentence him pursuant to the Sentencing
Guidelines. Jones also claimed that the Factual Resume supporting his plea
contained “multiple false narratives” and that he wanted to withdraw his
guilty plea because these had not been “corrected.” The Government filed
a response opposing the motion on March 8, 2019. On March 24, 2019,
Jones’s third counsel, Willeford, filed an unopposed motion for a hearing on
Jones’s pro se motion to withdraw his plea.
On April 4, 2019, the district court entered a written order striking
Jones’s pro se motion to withdraw his plea and denying as moot his request
for a hearing. Explaining its decision, the district court emphasized that
Jones had been explicitly informed by the magistrate judge at the January 17
hearing on his motion to replace counsel that all future motions needed to be
filed through appointed counsel and that pro se motions would be stricken.
The district court noted that, although Jones’s pro se motion to withdraw his
guilty plea pre-dated the January 17 hearing, Jones was nonetheless
represented by counsel at the time the motion was filed. Observing that Jones
had continued to send ex parte letters to the court through March 2019, the
court stated that it would not consider ex parte communications or pro se
motions and that “if Defendant would like the court to consider matters
previously submitted in his ex parte communications or any other matters,
these matters must be presented to and incorporated into a motion that is prepared

4

Case: 19-10600

Document: 00515728428

Page: 5

Date Filed: 02/01/2021

No. 19-10600

and filed by his appointed counsel, and any pro se filings by him will be stricken
without further notice” (italics in original).

No subsequent motion to

withdraw Jones’s guilty plea was filed by Willeford prior to sentencing.
At sentencing on May 13, 2019, Jones was given an opportunity to
personally address the court. After he told the court that “information” in
the PSR and “some of the evidence” is “not right,” the district judge asked
him “[h]ave not you already pleaded guilty? Your factual resume sets out
what you admitted. Are you telling me that is not true?” Jones responded
that the “only reason I agreed to it [sic] because I would get a certain time if
I took the plea, which you struck my motion on that attachment [sic].” The
court responded, “[y]es, I did. You filed a Motion to Withdraw your plea.
You had an attorney, and after I struck that motion, there was no substantive
motion filed to withdraw your plea, so yes, I did.” Jones then protested that
he did not threaten a witness, apparently referring to an obstruction of justice
enhancement in his PSR.

Jones did not raise the issue of SORNA

registration.
The court sentenced Jones to a below-guideline sentence 4 of 204
months on Count 1 and 60 months on Count 2, to run concurrently. At no
point in the sentencing hearing did Jones, the Government, the Probation
Office, or the district court mention sex offender registration or SORNA, nor
was reference to SORNA registration included in the judgment of conviction
and sentence.
Jones filed a timely appeal and also sent numerous pro se motions,
letters, and materials to this court, including a motion to file a “supplemental
appeal brief” that included as an attachment copies of email messages
between him and his numerous lawyers that are not part of the record on
appeal. This motion was denied. The merits brief filed by Jones’s appellate

4

Jones’s applicable guidelines range was 360 months to life, which was reduced to
300 months by operation of a statutory maximum.

5

Case: 19-10600

Document: 00515728428

Page: 6

Date Filed: 02/01/2021

No. 19-10600

counsel refers to the emails attached to Jones’s denied pro se “supplemental
appeal brief” motion as the “Jones Doc.” and cites to it throughout.
However, the “Jones Doc.” is not part of the record on appeal and is
therefore not properly before us. See United States v. Flores, 887 F.2d 543,
546 (5th Cir. 1989) (“We will not ordinarily enlarge the record on appeal to
include material not before the district court.”); accord In re GHR Energy
Corp. v. Crispin. Co. Ltd., 791 F.2d 1200, 1201–02 (5th Cir. 1986) (“[T]his
court is barred from considering filings outside the record on appeal, and
attachments to briefs do not suffice.”).
II. Standard of Review
Jones raises three issue on appeal. First, he argues the district court
erred in striking his pro se motion to withdraw his guilty plea without
evaluating the merits of his claim. A district court’s decision to strike a
motion is reviewed for abuse of discretion. See Macklin v. City of New Orleans,
293 F.3d 237, 240 (5th Cir. 2002) (“We review the district court’s
administrative handling of a case . . . for abuse of discretion.”); see also
Epperson v. Barnhart, 84 F. App’x 463, 464 (5th Cir. 2004) (“The district
court's decision to strike a pleading from the record is reviewed for abuse of
discretion.”).
Second, Jones argues that the district court erred in denying as moot
his motion for a hearing. A district court’s decision to deny a request for an
evidentiary hearing is reviewed for abuse of discretion. United States v.
Washington, 480 F.3d 309, 316 (5th Cir. 2007) (citing United States v. Powell,
354 F.3d 362, 370 (5th Cir. 2003)).
Third, Jones argues that his guilty plea was not knowing and
voluntary. As explained below, because Jones’s claim was not preserved, we
apply plain error review, which has four components. If (1) there is an
“error,” (2) that is “clear or obvious,” and (3) that error “affected the
appellant’s substantial rights,” then (4) we have discretion to remedy the

6

Case: 19-10600

Document: 00515728428

Page: 7

Date Filed: 02/01/2021

No. 19-10600

error if it “seriously affects the fairness, integrity or public reputation of
judicial proceedings.” Puckett v. United States, 556 U.S. 129, 135 (2009).
III. Discussion
A. Striking of pro se motion to withdraw plea
When a defendant is represented by counsel, he or she does not have
the right to file pro se motions. “[T]here is no constitutional right to hybrid
representation.” Myers v. Johnson, 76 F.3d 1330, 1335 (5th Cir. 1996); see also
United States v. Ogbonna, 184 F.3d 447, 449 n.1 (5th Cir. 1999). Accordingly,
when a defendant is represented by counsel, a district court may strike pro se
motions. See, e.g., United States v. Lopez, 313 F. App’x 730, 731 (5th Cir.
2009) (unpublished) (“[A]s Lopez acknowledges, he was represented by
counsel at the time he filed the motion . . . As such, Lopez’s pro se motion to
dismiss was an unauthorized motion and the district court properly
disregarded it.” (internal citation omitted)); United States v. Alvarado, 321
F. App’x 399, 400 (5th Cir. 2009) (unpublished) (“Alvarado argues for the
first time on appeal that the district court abused its discretion by striking his
pro se motion . . . Because Alvarado was represented by counsel in the district
court, he was not entitled to file a pro se motion on his own behalf.”); United
States v. House, 144 F. App’x 416, 417 (5th Cir. 2005) (unpublished) (“House
was represented by counsel in the district court. Therefore, she could not
file a pro se motion, and the district court properly struck her pro se motion
without addressing the . . . claim.”).
Jones was represented at all times by counsel. This is sufficient for us
to find no abuse of discretion on the part of the district court in striking
Jones’s pro se filings. 5 On appeal, Jones argues specifically that it was an
5

We also note that Jones was apparently verbally warned by the magistrate judge
at the January 17 hearing that all motions needed to be filed through counsel and warned
again in writing in the district court’s April 4 order striking his pro se motion to withdraw
his plea. Yet, despite both verbal and written warnings, a motion to withdraw his guilty
plea was not filed through counsel at any time.

7

Case: 19-10600

Document: 00515728428

Page: 8

Date Filed: 02/01/2021

No. 19-10600

abuse of discretion for the district court to strike his motion without first
evaluating the merits of his claim under Rule 11 and our multi-factor test
enumerated in United States v. Carr, 740 F.2d 339 (5th Cir. 1984), for
evaluating motions to withdraw guilty pleas. This argument conflates the
standard for evaluating the denial of a motion to withdraw a guilty plea on the
merits, see id., with the striking of a motion because it was improperly filed
pro se while a defendant was represented by counsel. Here, the district court
did not abuse its discretion in striking the pro se motion because Jones was
represented by counsel at the time.
B. Denial of hearing
Jones next argues that he raised “sufficient facts justifying relief” to
warrant an evidentiary hearing in his pro se motion to withdraw his plea.
“Although defendants are not entitled to an evidentiary hearing, a hearing is
required ‘when the defendant alleges sufficient facts which, if proven, would
justify relief.’” Powell, 354 F.3d at 370 (5th Cir. 2003) (quoting United States
v. Mergist, 738 F.2d 645, 648 (5th Cir. 1984)). However, as discussed above,
Jones’s pro se motion was properly struck by the district court because it was
not filed through counsel. In United States v. Sanders, we held that when a
defendant’s pro se motions challenging the validity of his plea were properly
struck by the district court because the defendant was represented by
counsel, and the defendant’s counsel had not filed such a motion, “there was
no properly filed motion preserving the issue of the validity of the plea.” 843
F.3d 1050, 1053–54 (5th Cir. 2016). By implication, when the district court
strikes a pro se motion filed by a defendant who is represented by counsel and
counsel has not moved for the relief requested in the pro se motion, then there
is no issue presented upon which to hold an evidentiary hearing and any

8

Case: 19-10600

Document: 00515728428

Page: 9

Date Filed: 02/01/2021

No. 19-10600

request for a hearing is moot. Therefore, Jones was not entitled to a hearing,
and the district court did not err in denying his request as moot.
C. Validity of guilty plea
The third issue is whether Jones’s guilty plea was made knowingly and
voluntarily. For a guilty plea to be knowing and voluntary, a defendant must
have “full understanding of what the plea connotes and of its consequence.”
Boykin v. Alabama, 395 U.S. 238, 244 (1969). “Before deciding whether to
plead guilty, a defendant is entitled to the effective assistance of competent
counsel.” Padilla v. Kentucky, 559 U.S. 356, 364 (2010). “A situation in
which a defendant is induced by deception, an unfulfillable promise, or
misrepresentation to enter a plea of guilty does not meet the standard for
voluntariness[.]” United States v. Amaya, 111 F.3d 386, 389 (5th Cir. 1997).
If a guilty plea “was induced by promises, the essence of those promises must
in some way be made known.” Santobello v. New York, 404 U.S. 257, 261–62
(1971).
Jones argues that his plea was not knowing and voluntary for two
reasons: (1) he was misled both by his counsel and by the Government
regarding the collateral consequence of mandatory sex offender registration
resulting from his guilty plea; and (2) the district court did not warn him
about the collateral consequence of sex offender registration. We review for
plain error because Jones did not preserve the issue, as his pro se motion to
withdraw his plea was properly struck and he did not thereafter raise the
issue. See Sanders, 843 F.3d at 1053–54.
Jones relies heavily on the “Jones Doc.” to support his first argument.
However, the materials contained in the “Jones Doc.” are not part of the
record on appeal, and thus are not properly before us. Considering only the
record before us, Jones has not shown that his guilty plea was invalid. Jones’s
claims on appeal are contradicted by both the contents of the plea agreement
and by his sworn statements when he pleaded guilty at re-arraignment. The
plea agreement does not mention sex offender registration, and at re-

9

Case: 19-10600

Document: 00515728428

Page: 10

Date Filed: 02/01/2021

No. 19-10600

arraignment Jones answered “yes” when asked if he had read the plea
agreement and whether it included in writing everything to which he and the
Government agreed. At the hearing, Jones also testified that, other than the
contents of the plea agreement, no one had made any promise or assurance
to induce his plea and that he had signed the plea agreement voluntarily.
Such sworn statements made in open court carry a “strong presumption of
verity.” Blackledge v. Allison, 431 U.S. 63, 74 (1977). On this record, at least,
Jones has not overcome that strong presumption.
Jones’s second argument—that his plea was invalid because the
district court did not inform him of sex offender registration consequences—
also fails. In arguing for a district court’s “duty to warn,” Jones seeks an
extension of current law. He concedes that, currently, under the law, a
district court is not required to inform a defendant of the sex offender
registration consequences collateral to a guilty plea. Because Jones concedes
that there is no such requirement, he cannot show plain error. See United
States v. Cuff, 538 F. App’x 411, 413 (5th Cir. 2013) (“Cuff complains next
that the district court failed to admonish him that he would be required to
register as a sex offender . . . However, the law on that question is unsettled
in this circuit, so the district court’s omission cannot be plain error.”)
(internal citations omitted); see id. at 413 n.1 (collecting cases regarding
collateral consequences).
D. Additional matters
Finally, at the end of his reply brief, Jones requests that we
(1) supplement the record on appeal to incorporate the “Jones Doc.” or, in
the alternative, return the case to the district court to determine whether the
exhibits were previously submitted to the district court; (2) stay his appeal
and return this case to the district court to consider the “Jones Doc.” in the
first instance and to supplement the record; or (3) stay his appeal, hold the
case in abeyance, and allow him to file a Federal Rule of Civil Procedure 60
motion in the district court to present the “Jones Doc.” These requests are

10

Case: 19-10600

Document: 00515728428

Page: 11

Date Filed: 02/01/2021

No. 19-10600

denied. “It is clearly settled that the appellant cannot raise new issues in a
reply brief[.]” Charles Alan Wright & Arthur R. Miller, 16A
Federal Practice & Procedure § 3974.3 (4th ed. 2020).
IV. Conclusion
For the foregoing reasons, we AFFIRM Jones’s conviction, without
prejudice to him seeking collateral review. We express no opinion on
whether Jones will be required at some point in the future to register as a sex
offender under SORNA or any other state or federal law, nor do we express
an opinion on the merits of any claim that Jones might raise, if it all, in a 28
U.S.C. § 2255 motion.

11

B
Unpublished Denial of Panel Rehearing

Case: 19-10600

Document: 00515778519

Page: 1

Date Filed: 03/12/2021

United States Court of Appeals
for the Fifth Circuit
No. 19-10600
United States of America,
Plaintiff—Appellee,
versus
Marcus Darwyn Jones,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CR-357-1

ON PETITION FOR REHEARING
Before Owen, Chief Judge, and Dennis, and Haynes, Circuit Judges.
Per Curiam:
IT IS ORDERED that the petition for rehearing is DENIED.

C
Fifth Circuit Briefing Order

Case: 19-10600

Document: 00515330912

Page: 1

Date Filed: 03/03/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10600

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
MARCUS DARWYN JONES, also known as Dab,
Defendant−Appellant.

Appeals from the United States District Court
for the Northern District of Texas

O R D E R:
Counsel appointed to represent Marcus Jones on appeal has filed a
motion to withdraw and a brief that relies on Anders v. California, 386 U.S.
738 (1967). Jones has filed a response and a supplemental response, and his
motion to file a supplemental Anders response in GRANTED. His motions for
leave to proceed pro se, to file a pro se supplemental brief, and, in the alternative, to substitute appointed counsel, are DENIED.

See United States v.

Case: 19-10600

Document: 00515330912

Page: 2

Date Filed: 03/03/2020

No. 19-10600
Ogbonna, 184 F.3d 447, 449 n.1 (5th Cir. 1999); United States v. Wagner, 158
F.3d 901, 902−03 (5th Cir. 1998).
Counsel’s brief is inadequate in the following respect: In his supplemental response, Jones argues that he did not knowingly and voluntarily plead
guilty because he was not informed that he would have to register for life as a
sex offender with federal and state authorities for. He states that if he had
known that, he would not have pleaded guilty. That issue is not waived by a
waiver of appeal. See United States v. Carreon-Ibarra, 673 F.3d 358, 362 n.3
(5th Cir. 2012).
Jones pleaded guilty to violating two counts of 18 U.S.C. § 1952—use of
a facility of interstate commerce in aid of a racketeering enterprise—with the
underlying unlawful activity in count one being the promotion of prostitution
in violation of Texas Penal Code § 43.03 and the underlying crime of violence
being sex trafficking of children under 18 U.S.C. § 1591. The unlawful activity
in count two was a business enterprise involving prostitution in violation of
Texas Penal Code § 43.03.
Sex trafficking as described in § 1591 is included in the definition of sex
offenses covered by the Sex Offender Registration and Notification Act
(“SORNA”). See 34 U.S.C. § 20911(5)(A)(iii). A criminal offense that is a specified offense against a minor includes solicitation to practice prostitution. See
§ 20911(7)(E). Section 1952, to which Jones pleaded guilty, is not a listed sex
offense, but the underlying offenses, child sex trafficking and prostitution, are
covered sex offenses under SORNA. See § 20911(5)(A)(iii), (7)(E).
Counsel is ORDERED to file, within 30 days, either a supplemental
Anders brief, addressing whether Jones is correct that he was misinformed
about the sex offender registration requirement and whether it affected

2

Case: 19-10600

Document: 00515330912

Page: 3

Date Filed: 03/03/2020

No. 19-10600
the knowing and voluntary nature of his guilty plea, particularly in light
of United States v. Schofield, 802 F.3d 722 (5th Cir. 2015), and United States
v. Dailey, 941 F.3d 1183 (9th Cir. 2019), or, in the alternative, a brief on the
merits addressing any nonfrivolous issue(s) that counsel deems appropriate.
The motion to withdraw is CARRIED with the case. Counsel should move to
withdraw this motion if a merits brief is filed.

______/s/ Jerry E. Smith__________
JERRY E. SMITH
United States Circuit Judge

3

D
District Court Judgment

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

Page 1 of 7 PageID 213

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.
Case Number: 3:17-CR-00357-L(1)
USM Number: 55971-177
Keith Willeford

MARCUS DARWYN JONES

Defendant’s Attorney

THE DEFENDANT:
☐ pleaded guilty to count(s)
pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Counts 1 and 2 of the Superseding Information filed October 31,
2018

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense
18:1952(a)(2) and (B) (18:1591(a) and (b)(2)) Use of a Facility of Interstate Commerce in Aid of a
Racketeering Enterprise
18:1952(a)(3) and (A) Use of a Facility of Interstate Commerce in Aid of a Racketeering Enterprise

Offense Ended

Count

04/17/2017

1

04/14/2016

2

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☒ Count(s) One and Two of the original Indictment filed 7/12/2017 ☐ is

☒ are dismissed on the motion of the United

States

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

May 13, 2019
Date of Imposition of Judgment

Signature of Judge

Sam A. Lindsay, United States District Judge
Name and Title of Judge

May 15, 2019
Date

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 214

Judgment -- Page 2 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker, and considering the
factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United States Bureau of Prisons to be
imprisoned for a total term of: Two hundred four (204) months as to Count 1, and Sixty (60) months as to Count 2. The terms as

to these counts shall run concurrently, for a total aggregate sentence of 204 months.

☒ The court makes the following recommendations to the Bureau of Prisons:
The court recommends that Defendant be allowed to serve his sentence at FCI, Seagoville, if he is eligible.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

☐

a.m.

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on

at

to

, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 215

Judgment -- Page 3 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of : Three (3) years as to Counts 1 and 2.
The terms as to these counts shall run concurrently.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
5.

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 216

Judgment -- Page 4 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 217

Judgment -- Page 5 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall have no contact with any victim of this offense, including by correspondence, telephone, or
communication through third parties, except under circumstances approved in advance by the probation officer.
The defendant shall not enter onto the premises, travel past, or loiter near any victim's residence, place of
employment, or other places frequented by the victim.
The defendant shall participate and comply with the requirements of the Computer and Internet Monitoring
Program, contributing to the cost of the monitoring in an amount not to exceed $40 per month. The defendant
shall consent to the probation officer's conducting ongoing monitoring of his/her computer/computers. The
monitoring may include the installation of hardware and/or software systems that allow evaluation of computer
use. The defendant shall not remove, tamper with, reverse engineer, or circumvent the software in any way. The
defendant shall only use authorized computer systems that are compatible with the software and/or hardware used
by the Computer and Internet Monitoring Program. The defendant shall permit the probation officer to conduct a
preliminary computer search prior to the installation of software. At the discretion of the probation officer, the
monitoring software may be disabled or removed at any time during the term of supervision.
The defendant shall submit to periodic, unannounced examinations of his/her computer/computers, storage media,
and/or other electronic or Internet-capable devices, performed by the probation officer at reasonable times and in
a reasonable manner based on reasonable suspicion of contraband evidence of a violation of supervision. This
may include the retrieval and copying of any prohibited data and/or the removal of such system for the purpose
of conducting a more thorough inspection. The defendant shall provide written authorization for release of
information from the defendant's Internet service provider.
The defendant shall provide to the probation officer complete access to all business and personal financial
information.
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S. Probation Office
for treatment of narcotic, drug, or alcohol dependency, which will include testing for the detection of substance
use or abuse. The defendant shall abstain from the use of alcohol and/or all other intoxicants at any time. The
defendant shall contribute to the costs of services rendered (copayment) at a rate of at least $15 per month.

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 218

Judgment -- Page 6 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
JVTA Assessment*
Fine
TOTALS
$200.00
$.00
$.00

Restitution
$.00

☐ The determination of restitution is deferred until


An Amended Judgment in a Criminal Case
(AO245C) will be entered after such determination.
The defendant must make restitution (including community restitution) to the following payees in
the amount listed below.

The defendant must make restitution (including community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:17-cr-00357-L Document 69 Filed 05/15/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 219

Judgment -- Page 7 of 7

MARCUS DARWYN JONES
3:17-CR-00357-L(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

F below); or

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

or
D

☐ Payment in equal (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

over a period of
(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts 1 and 2 ,
which shall be due immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

☐ Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same
loss that gave rise to defendant's restitution obligation.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☐ The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

